HHS/OIG, Audit -"Audit of Thomas Jefferson University Hospital's Organ Acquisition Costs Claimed for the Period July 1, 1999 Through June 30, 2000,"(A-03-04-00012)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Thomas Jefferson University Hospital's Organ Acquisition Costs Claimed for the Period July 1, 1999 Through June 30, 2000," (A-03-04-00012)
March 30, 2005
Complete Text of Report is available in PDF format (501 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether organ acquisition costs claimed by Thomas Jefferson University Hospital (Thomas Jefferson) complied with Medicare law, regulations and guidelines.  We found that Thomas Jefferson did not comply with Medicare law, regulations and guidelines related to organ acquisition.  As a result, for the period of July 1, 1999, through June 30, 2000, Thomas Jefferson received $64,447 in Medicare overpayments associated with $131,506 of unallowable costs.  Also, Thomas Jefferson received up to $398,918 in additional overpayments associated with $927,785 of unsupported costs.  We recommended that the Medicare intermediary: (1) recover the Medicare overpayment of $64,447 associated with the $131,506 of unallowable costs claimed as organ acquisition; (2) work with Thomas Jefferson to determine, if possible, what portion of the $927,785 of unsupported costs and related Medicare payment of $398,918 was associated with allowable organ acquisition activities, and recover that portion of the $398,918 that Thomas Jefferson is unable to support with allowable organ acquisition costs; (3) review organ acquisition costs claimed by Thomas Jefferson on its Medicare cost reports for fiscal year 1999 and any subsequent years for issues similar to those identified in fiscal year 2000, and recover any Medicare overpayments; (4) monitor future Medicare cost report claims for organ acquisition costs from Thomas Jefferson to ensure compliance with Medicare requirements; and (5) instruct Thomas Jefferson to develop and maintain adequate time and effort reporting, and to provide clear direction to responsible personnel as to Medicare requirements for claiming and documenting organ acquisition costs.  Thomas Jefferson and the Medicare intermediary generally agreed with our findings.